No. 20-____
IN THE

Supreme Court of the United States
_________
ORLANDO CORDIA HALL
Petitioner,
v.
T.J. WATSON, WARDEN, USP TERRE HAUTE,
Respondent.
_________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the D.C. Circuit

Execution Date: November 19, 2020 at 6:00 PM
_________
EMERGENCY APPLICATION FOR A STAY OF
EXECUTION
_________
KATHRYN M. ALI
KAITLYN A. GOLDEN
HOGAN LOVELLS US LLP
555 Thirteenth Street,
N.W.
Washington, D.C. 20004
MARCIA A. WIDDER
104 Marietta Street NW,
Suite 260
Atlanta, GA 30303
(404) 222-9202

PIETER VAN TOL
Counsel of Record
HOGAN LOVELLS US LLP
390 Madison Avenue
New York, NY 10017
(212) 918-3000
Pieter.vantol@hoganlovells.com
ROBERT C. OWEN
LAW OFFICE OF ROBERT C.
OWEN, LLC
53 West Jackson Blvd., Suite
1056
Chicago, IL 60604

Counsel for Orlando Cordia Hall

ii
PARTIES TO THE PROCEEDING
Orlando Cordia Hall, petitioner on review, was the
plaintiff-appellant below.
T.J. Watson, Complex Warden, U.S. Penitentiary
Terre Haute, is respondent on review and was the
defendant-appellee below.

iii
RELATED PROCEEDINGS
There are several related proceedings, as defined in
Supreme Court Rule 14.1(b)(iii).
This appeal originates from an Order from the
District Court for the Southern District of Indiana.
See Order, Hall v. Watson, No. 2:20-cv-00599 (S.D.
Ind. Nov. 18, 2020), Dkt. #18. The District Court
case resulted in one appeal to the Seventh Circuit,
which was decided on November 19, 2020. See Hall
v. Watson (7th Cir. Nov. 19, 2020).
Mr. Hall previously challenged the same criminal
conviction or sentence on direct appeal in United
States v. Orlando Cordia Hall, No. 96-10178 (5th
Cir.). The Fifth Circuit denied relief, 152 F.3d 381
(5th Cir. 1998), and this Court denied certiorari, see
526 U.S. 1117(1999).
Mr. Hall also previously challenged the same criminal conviction or sentence on proceedings pursuant
to 28 U.S.C. § 2255. See Hall v. United States, Nos.
4:00–CV–422–Y, 4:94-CR-121 (N.D. Tex. Aug. 24,
2004). On July 5, 2006, the Fifth Circuit denied Mr.
Hall a certificate of appealability. United States v.
Hall, 455 F.3d 508 (5th Cir. 2006). The Supreme
Court denied certiorari on April 16, 2007. Hall v.
United States, 549 U.S. 1343 (2007).
Mr. Hall twice requested leave from the Fifth Circuit to file successive habeas petitions pursuant to 28
U.S.C. § 2255, and was twice denied. In re Orlando
Hall, No. 16-10670, Doc. 00513555153 (5th Cir. June
21, 2016); In re Orlando Hall, No. No. 19-10345, Doc.
00515621458 (5th Cir. Oct. 30, 2020).
Mr. Hall challenged the same criminal conviction
on proceedings pursuant to a petition for writ of

iv
habeas corpus under 28 U.S.C. § 2241 by the United
States District Court for the Southern District of
Indiana, challenging his conviction under 18 U.S.C. §
924(c). On November 18, 2020, the Seventh Circuit
denied relief. See Order, Hall v. Watson, No. 2003216 (7th Cir., Nov. 18, 2020) Dkt. #11.
A related action was filed in the District of Columbia District Court. Judgment in that action was
entered November 16, 2020. See Order, Hall v. Barr
et al., No. 20-cv-03184 (D.D.C. Nov. 6, 2020), Dkt.
#24; see also Mem. Op., Hall v. Barr et al., No. 20-cv03184 (D.D.C. Nov. 16, 2020), Dkt. #23.

IN THE

Supreme Court of the United States
_________
No. 20_________
ORLANDO CORDIA HALL.,
Petitioner,
v.
T.J. WATSON,
Respondent.
_________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit
Execution Date: November 19, 2020 at 6:00 PM
_________
EMERGENCY APPLICATION FOR A STAY OF
EXECUTION
_________
To the Honorable Brett M. Kavanaugh, Associate
Justice of the United States and Circuit Justice for
the Seventh Circuit:
Orlando Cordia Hall is a Black man who was convicted and sentenced to die by an all-White jury.
One of the two prosecutors who picked that all-White
jury has twice been adjudicated to have violated
Batson—once by this Court in Miller-El and subsequently by the Fifth Circuit.
The case concerns whether Mr. Hall will ever be
able to raise his claims that his conviction and sen(1)

2
tence were obtained in violation of Batson v. Kentucky, and that his federal death sentence is the
result of racial discrimination in the jury selection
process. No court has ever heard or considered the
myriad ways that racial bias distorted Petitioner’s
trial, conviction, and death sentence because at the
time of trial and Mr. Hall’s § 2255 proceedings,
evidence of the prosecutor’s history of Batson violations was not known..
And if the decision of the court below is permitted
to stand, Petitioner will be executed without ever
having had an opportunity to litigate his claims,
despite the fact that race discrimination is so pernicious, so nefarious, and contrary to our values that
tolerating its influence in any criminal case, let alone
one that will end in an execution, is manifestly
unjust. Race discrimination is so pernicious, so
nefarious, and contrary to our values that any
amount in a criminal trial is manifestly unjust that
tolerating its influence in any criminal case, let alone
one that will end in an execution, is manifestly
unjust.
Despite the statutory language in 28 U.S.C. §§
2241 and 2255 and the weight of precedent, the
panel majority found that Petitioner had no procedural avenue to bring his claims and erred in (1)
summarily concluding that § 2241 does not provide
an avenue for relief, without undertaking any substantive review of circuit precedent or engaging in
any statutory interpretation and (2) disregarding the
weight of new evidence that racial discrimination
unconstitutionally tainted a federal death sentence,
which this Court has given exceptional importance.

3
This Court should stay Mr. Hall’s execution pending disposition of the pending petition for a writ of
certiorari. This case satisfies each consideration
relevant to that determination.
There is “a reasonable probability” that four Justices will vote to grant certiorari and “a fair prospect”
that this “Court will conclude that the decision below
was erroneous.” Indiana State Police Pension Trust
v. Chrysler LLC, 556 U.S. 960, 960 (2009) (per curiam) (internal quotation marks omitted). The panel’s
decision declined to assess Mr. Hall’s Batson claim,
instead foreclosing relief due to an overly narrow
interpretation of 28 U.S.C. § 2255(e)’s “savings
clause,” which conflicts with its own prior decisions.
This was manifestly erroneous, and allowing the
government to execute Mr. Hall without even permitting review of the claims he raised, which the
district court characterized as “extremely serious,”
Pet. App. 25a, would be manifestly unjust.
Mr. Hall will suffer irreparable harm absent a stay.
Were Mr. Hall’s execution to go forward without an
opportunity to fully litigate his important constitutional claims, Mr. Hall would suffer “irremediable”
harm. Ford v. Wainwright, 477 U.S. 399, 411 (1986)
(plurality op.). Failure to stay the mandate also
risks
the
“irreparable
harm”
of
“foreclos[ing] * * * certiorari review by this Court.”
Garrison v. Hudson, 468 U.S. 1301, 1302 (1984)
(Burger, C.J., in chambers).
Although this is not a “close case” where consideration of the equities is warranted, they too favor a
stay. Indiana State Police Pension Trust, 556 U.S. at
960 (internal quotation marks omitted). Any mar-

4
ginal harm the government might face from a potentially short stay pending resolution of the petition for
a writ of certiorari pales in comparison to the irreversible harm that “[r]efusing a stay may visit” on
Mr. Hall. Philip Morris USA Inc. v. Scott, 561 U.S.
1301, 1305 (2010) (Scalia, J., in chambers). The
public interest in ensuring that constitutional rights
are vindicated—an interest that is particularly
important in the context of an execution—and judicial economy favor a stay, too.
Mr. Hall thus respectfully asks that this Court stay
his execution pending disposition of his petition for a
writ of certiorari. Because his execution is scheduled
for tonight (November 19, 2020) at 6:00 p.m. EST,
Mr. Hall respectfully asks this Court to order briefing on this application before then, or administratively stay the execution pending disposition.
OPINIONS BELOW
The Seventh Circuit denied relief in a decision dated November 19, 2020. Pet. App. 1a-3a. The District
Court’s order denying the preliminary injunction is
available at Appendix 001 attached hereto. Pet. App.
4a-25a.
JURISDICTION
The Seventh Circuit entered judgment on November 19, 2020. Pet. App. 2a-3a. This Court’s jurisdiction is invoked under 28 U.S.C. § 1254(1).
STATUTORY AND CONSTITUTIONAL
PROVISIONS INVOLVED
28 U.S.C. § 2241(a) provides:

5
Writs of habeas corpus may be granted by the
Supreme Court, any justice thereof, the district courts and any circuit judge within their
respective jurisdictions. The order of a circuit
judge shall be entered in the records of the
district court of the district wherein the restraint complained of is had.
28 U.S.C. § 2255(e) provides:
An application for a writ of habeas corpus in
behalf of a prisoner who is authorized to apply for relief by motion pursuant to this section, shall not be entertained if it appears
that the applicant has failed to apply for relief, by motion, to the court which sentenced
him, or that such court has denied him relief,
unless it also appears that the remedy by motion is inadequate or ineffective to test the
legality of his detention.
28 U.S.C. § 2255(h) provides:
A second or successive motion must be certified as provided in section 2244 by a panel of
the appropriate court of appeals to contain—
(1) newly discovered evidence that, if proven
and viewed in light of the evidence as a
whole, would be sufficient to establish by
clear and convincing evidence that no reasonable factfinder would have found the movant
guilty of the offense; or (2) a new rule of constitutional law, made retroactive to cases on
collateral review by the Supreme Court, that
was previously unavailable.

6
The Fifth Amendment to the U.S. Constitution,
U.S. Const., amend. IV provides:
No person shall * * * be deprived of life, liberty, or property, without due process of
law[.]
The Sixth Amendment to the U.S. Constitution,
U.S. Const., amend. VI provides:
In all criminal prosecutions, the accused shall
* * * have compulsory process for obtaining
witnesses in his favor, and to have the Assistance of Counsel for his defense.
The Eighth Amendment to the U.S. Constitution,
U.S. Const., amend. VIII provides:
Excessive bail shall not be required, nor excessive fines imposed, nor cruel and unusual
punishments inflicted
The Fourteenth Amendment to the U.S. Constitution, U.S. Const., amend. XIV provides:
No State shall * * * deprive any person of life,
liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the equal protection of the laws.
STATEMENT
A. Factual and Procedural History
Mr. Hall was indicted in the fall of 1994 on six
counts of: (1) kidnapping in which a death occurred,
(2) conspiracy to commit kidnapping, (3) traveling in
interstate commerce with intent to promote the
possession of marijuana with intent to distribute, (4)
using a telephone to promote the unlawful activity of
extortion, (5) traveling in interstate commerce with

7
intent to promote extortion, and (6) using a carrying
a firearm during a crime of violence. In February
1995, the government gave notice that it intended to
seek the death penalty against him. The government
did not seek the death penalty against three of Mr.
Hall’s co-defendants.1
The government made the decision to prosecute in
the United States District Court for the Northern
District of Texas, which was 80.81% White and
10.41% Black, according to data from the 1990
Census. It could have tried Mr. Hall in the Pine
Bluff Division of the Eastern District of Arkansas,
which was 35.85% Black in 1990.
Voir dire lasted from October 2–19, 1995. Assistant
United States Attorney Paul Macaluso played a
critical role in selecting that jury. After strikes for
cause, five qualified Black venire members remained.
The government struck four of them. The fifth, who
had expressed strong pro-death penalty views in her
juror questionnaire and during questioning, was
struck by the defense. Mr. Hall’s defense counsel
raised a Batson challenge at trial on the basis that
“the government . . . used preemptory strikes on four
black jurors . . . .” The district court noted its view
that this was likely “insufficient to present prima
facie case” and, in response the government provided
1

The fourth co-defendant, Bruce Webster, recently had his
death sentenced vacated and affirmed by the Seventh
Circuit on the basis that he is intellectually disabled.
Webster v. Watson, 975 F.3d 667 (7th Cir. 2020). As a result,
of the individuals convicted of these crimes, only Mr. Hall
remains under a death sentence.

8
ostensibly “neutral” reasons for its strikes. The
government stated that “the Court refused to grant []
challenges” to the four Black jurors in question.
However, the government had sought to strike only
two of the four, Frances Miller and Lawrence Barrett, for cause. A colloquy followed, at the end of
which the court denied the Batson challenge without
allowing the defense to address the stated reasons
for the government’s exercise of its peremptory
strikes.
There were two Black jurors who were not challenged for cause. Potential Black juror Amy Evans
wrote in her juror questionnaire that she supported
the death penalty “depend[ing] on the nature of the
crime,” that it was appropriate for “brutal senseless
murders,” and that it served “as a means of deterrent
from committing the crime.” She testified that even
if the option of a life sentence without parole was
available, she could vote for the death penalty. The
government claimed that it struck Ms. Evans, because she “was very, very hesitant on her views on
the death penalty.” However, the government seated
White jurors who gave similar testimony. For example, White prospective juror Mary Ann Herring
provided both “yes” and “no” answers on her questionnaire in response to whether she could support a
death sentence where life without parole was also an
option. She later testified during voir dire that the
death penalty should “depend on the circumstances”
and “on the crime.” The government further cited
“concern[]” that Ms. Evans had two brothers-in-law
in prison, but asked her no questions about this

9
topic, and seated multiple White jurors with family
members in or recently released from prison.
Potential Black juror Billie Lee stated in her juror
questionnaire that she favored the death penalty for
“extremely brutal” crimes and it should be available
for “child molesters who kill their victims.” During
voir dire, she testified that she believed the death
penalty was warranted for “[a]nything that involves
children, murder of children, [and] cruelty to children” (Mr. Hall was tried for the killing of a minor).
She also testified that, though she may initially lean
toward a life sentence over the death sentence, she
could impose a death sentence “depend[ing] on
evidence, the cruelty of the act, all of that would have
to be considered.” The government nevertheless
claimed that it struck Ms. Lee because of her antideath penalty views. Again, however, the government accepted White jurors who expressed similar
views. For example, just like Ms. Lee, seated white
juror Stacey Donaldson had selected on her jury form
that despite deep misgivings about capital punishment, “as long as the law provides for it, I could
assess it, under the proper set of circumstances.” And seated juror Cindy Boggess testified during
voir dire that she had always connected the death
penalty to ”the murder of a child or really coldblooded, calculated . . . sort of murder,” and observed that
“it would have to be one that was literally no doubt
whatsoever, otherwise . . . I could not do it.” The
government also claimed that it struck Ms. Lee that
she was “on a prior jury trial for robbery and found
the defendant not guilty.” This was untrue. And,
once again, the government accepted a White juror

10
who served on a prior jury and acquitted a defendant
on a charge of murder. Upon noticing this mistake,
the government changed its story, claiming that Ms.
Lee was struck be-cause she “had a brother-in-law
who was a criminal defense attorney, which caused
me some concern.” But, again, the government
asked Ms. Lee no questions about this topic and
seated a White juror whose brother-in-law was a
public defender.
Trial proceeded from October 24-31. The defense
presented no evidence and waived closing argument.
On October 31, 1995, the all-White jury convicted
Mr. Hall of all counts. The penalty phase commenced the following morning. From November 1-3,
the same all-White jury heard testimony and argument regarding Mr. Hall’s sentence. On November
6, 1995, the jury recommended the death penalty.
The district court entered judgment on February
12, 1996, formally sentencing Mr. Hall to death. Mr.
Hall appealed and the Fifth Circuit affirmed.
B. Subsequent Developments Following Mr.
Hall’s Conviction.
Mr. Hall appealed his conviction and that appeal
was denied by the Fifth Circuit. United States v.
Hall, 152 F.3d 381 (5th Cir. 1998), cert. denied, 526
U.S. 1117 (1999), denying reh’g on Oct. 1, 1998. In
May 2000, Mr. Hall moved to vacate his conviction
and sentence pursuant to 28 U.S.C. § 2255. United
States v. Hall, No. 4:94-cr-00121-Y, Doc. 958 (N.D.
Tex. May 16, 2020). The district court ultimately
denied his claims. Hall v. United States, No. 4:00-cv00422-Y, 2004 WL 1908242, at *37 (N.D. Tex. Aug.
24, 2004). Mr. Hall sought permission to appeal

11
from both the district court and the Fifth Circuit.
Leave to appeal was denied. United States v. Hall,
455 F.3d 508 (5th Cir. 2006), cert. denied, 549 U.S.
1343 (2007).
After Mr. Hall’s 28 U.S.C. § 2255 proceedings concluded, this Court decided Miller-El v. Dretke, 545
U.S. 231 (2005), holding that the Texas prosecutors
involved, including Paul Macaluso—who prosecuted
Mr. Hall and helped select the all-White jury that
convicted him and sentenced him to death—violated
Batson by striking Black jurors. The Court specifically rejected the justifications that Macaluso and
others had proffered for their exercise of peremptory
strikes in that case, holding unequivocally that they
were pretextual. Of particular importance, this Court
credited evidence that the Dallas County District
Attorney’s Office—where Macaluso trained and
practiced for 15 years—“had adopted a formal policy
to exclude minorities from jury service. . . . A manual
entitled ‘Jury Selection in a Criminal Case’ [sometimes known as the Sparling Manual] was distributed to prosecutors.” 545 U.S. at 264. The Court found
that “the manual was written in 1968” and “remained in circulation until 1976, if not later.” Id.
(quoting Miller-El v. Cockrell, 537 U.S. 322, 334
(2003)).
The Sparling Manual was unequivocal in its discriminatory directives. Most importantly for the
present case, it advocated to avoid minority jurors
because “[m]inority races almost always empathize
with the Defendant.” Miller-El v. Dretke, No. 039659, 2004 WL 2899955, *99-114 (2004) see also id.
(“You are not looking for any member of a minority

12
group which may subject him to oppression – they
almost always empathize with the accused.”). The
manual further advocated against Jewish jurors
because they “have a history of oppression and
generally empathize with the accused.” And about
women jurors it stated, “I don’t like women jurors
because I can’t trust them . . . Young women too
often sympathize with the Defendant; old women
wearing too much make-up are usually unstable, and
therefore are bad State’s jurors.” Id. Realizing that
“[i]t is impossible to keep women off your jury,” the
manual instructed prosecutors to “try to keep the
ratio at least seven to five in favor of men.” Id.
The Court also noted that “[t]he prosecutors used
their peremptory strikes to exclude 91% of the eligible African–American venire members,” a disparity
“unlikely to [be] produce[d]” by “[h]appenstance.” Id.
at 241. The Court also instructed that a “side-by-side
comparison[] of some black venire panelists who
were struck [with] white panelists allowed to serve”
is “[m]ore powerful than . . . bare statistics.” Id.
Thus, “[i]f a prosecutor’s proffered reason for striking
a Black panelist applies just as well to an otherwisesimilar nonblack who is permit-ted to serve, that is
evidence tending to prove purposeful discrimination
to be considered at Batson’s third step.” Id.
Four years later, the Fifth Circuit determined, in a
separate case, that Macaluso had once again struck
Black jurors on the basis of their race in violation of
Batson. See Reed, 555 F.3d at 382 (“One of the same
lawyers that conducted the voir dire in Miller–El’s
case, Paul Macaluso, also questioned prospective
jurors for Reed’s trial”). Like this Court, the Fifth

13
Circuit credited evidence concerning the Sparling
manual, noting that given “the historical evidence of
racial bias among the[] prosecutors” (including
Macaluso), “we view this exact same evidence as
persuasive here.” Id.
Also after Mr. Hall’s conviction, appeal, and § 2255
proceedings, new data became available demonstrating that the federal death penalty has been disproportionately meted out based on race—and particularly in Texas, where Mr. Hall was prosecuted. The
data shows that federal prosecutors in Texas were
nearly six times more likely to request authorization
to seek the death penalty against a Black defendant
than a non-Black defendant. Authorization was
nearly eight times more likely to be granted in cases
with a Black defendant than a non-Black defendant.
And a death verdict was nearly sixteen times more
likely to be rendered in a case with a Black defendant than a non-Black defendant. In the Northern
District of Texas, where Mr. Hall was sentenced, the
racial disparity was consistent with that seen across
all four Texas federal districts and even “slightly
greater.”
On November 12, 2020, Mr. Hall filed a petition for
habeas corpus relief in the district where he is confined, the United States District Court for the Southern District of Indiana.
He contemporaneously
sought a stay of his execution. Mr. Hall’s motion was
denied on November 17, 2020. Mr. Hall’s subsequent
appeal was dismissed on November 19, 2020.
The execution is scheduled to go forward today,
November 19, 2020, at 6:00 pm.
REASONS FOR GRANTING THE STAY

14
To obtain a stay pending the disposition of a petition for a writ of certiorari, the applicant must
demonstrate “(1) a reasonable probability that four
Justices will consider the issue sufficiently meritorious to grant certiorari or to note probable jurisdiction; (2) a fair prospect that a majority of the Court
will conclude that the decision below was erroneous;
and (3) a likelihood that irreparable harm will result
from the denial of a stay.” Indiana State Police
Pension Trust, 556 U.S. at 960 (quoting Conkright v.
Frommert, 556 U.S. 1401, 1402 (2009) (Ginsburg, J.,
in chambers)). “ ‘[I]n a close case it may [also] be
appropriate to balance the equities,’ to assess the
relative harms to the parties, ‘as well as the interests
of the public at large.’ ” Id. (quoting Conkright, 556
U.S. at 1402). Those standards are satisfied here.
I.

THE
PETITION
PRESENTS
A
COMPELLING CASE FOR CERTIORARI,
AND
THERE
IS
A
REASONABLE
PROBABILITY THAT THIS COURT WILL
GRANT REVIEW.

Mr. Hall’s petition raises important questions regarding two separate issues. Mr. Hall need only show
that certiorari is likely as to one. Despite the statutory language in 28 U.S.C. §§ 2241 and 2255 and the
weight of precedent, the panel majority found that
Petitioner had no procedural avenue to bring his
claims and erred in (1) summarily concluding that §
2241 does not provide an avenue for relief, without
undertaking any substantive review of circuit precedent or engaging in any statutory interpretation and
(2) disregarding the weight of new evidence that
racial discrimination unconstitutionally tainted a

15
federal death sentence, which this Court has given
exceptional importance.
II.

THERE IS A FAIR PROSPECT THAT
THIS COURT WILL HOLD THAT THE
SEVENTH CIRCUIT’S DECISION WAS
ERRONEOUS.

There is at least “a fair prospect” that this Court
will conclude the Seventh Circuit erred with respect
to at least one of the two questions presented in the
petition. At this stage, Mr. Hall need not show that
outcome is a certainty (or anything close to certainty). See Araneta v. United States, 478 U.S. 1301,
1304 (1986) (Burger, C.J., in chambers) (“such matters cannot be predicted with certainty”); Bd. of
Educ. of City of L.A. v. Super. Ct. of Cal., Cty. of L.A.,
448 U.S. 1343, 1347 (1980) (Rehnquist, J., in chambers) (comparing this exercise to “the reading of tea
leaves”). Instead, the arguments in the petition need
pass only the threshold of “plausibility.” John Doe
Agency v. John Doe Corp., 488 U.S. 1306, 1310 (1989)
(Marshall, J., in chambers); accord California v. Am.
Stores Co., 492 U.S. 1301, 1306 (1989) (O’Connor, J.,
in chambers). Although it is enough to make that
showing with respect to any of the questions presented in the petition, here, Mr. Hall clears that bar
with respect to both questions presented.
A. The Panel Manifestly Erred In Concluding That Mr. Hall Could Not Pursue Habeas Relief Via 28 U.S.C. § 2241,
Thereby Foreclosing Any Avenue For
Him to Litigate Race Discrimination

16
Claims The District Court Characterized As “Extremely Serious.”
As this Court has recognized, the “Great Writ”
exists “to provide an effective and speedy instrument
by which judicial inquiry may be had into the legality of the detention of a person.” Carafas v. LaVallee,
391 U.S. 234, 238 (1968). The panel’s decision below
guts this historic safety valve, foreclosing access to
any possibility of habeas relief for Mr. Hall despite
the fact that he has raised compelling evidence of
race discrimination at his trial by a prosecutor
adjudicated to have committed Batson violations on
at least two occasions, including by this Court, and
despite the fact that this evidence was not reasonably available when Mr. Hall litigated his § 2255
petition. Unless this Court intervenes to correct the
Court of Appeals’ error and hold that Mr. Hall may
proceed pursuant to the “Savings Clause” of 28
U.S.C. § 2255(e), he will be executed without any
court ever hearing claims that the district court
characterized as “extremely serious.” Pet. App. 25a.
1. The Courts Below Erred by Finding That §
2255 Was Not Structurally Inadequate or Ineffective.
Section 2255(e), often referred to as the “savings
clause” or “safety valve,” permits a prisoner to petition the federal courts for a writ of habeas corpus
under 28 U.S.C. § 2241, but only if “the remedy by
motion [under § 2255] is inadequate or ineffective to
test the legality of [the] detention.’” Roundtree v.
Krueger, 910 F.3d 312, 313 (7th Cir. 2018) (quoting §
2255(e)).

17
That the relief sought under § 2241 is based on
grounds that “could not have [been] invoked . . . by
means of a second or successive § 2255 motion” and
seeks to remedy “an error [that] was indeed a miscarriage of justice” are key to the Seventh Circuit’s
interpretation of the savings clause. Brown v. Rios,
696 F.3d 638, 640 (7th Cir. 2012) (citation omitted).
While “[t]he mere fact that [a] petition would be
barred as a successive petition under § 2255 . . . is
not enough to bring the petition under § 2255's
savings clause,” Garza v. Lappin, 253 F.3d 918, 921
(7th Cir. 2001), a petitioner is able to access the
savings clause by showing the presence of “something more.” Webster v. Daniels, 784 F.3d 1123, 1136
(7th Cir. 2015) (en banc).
The en banc Seventh Circuit in Webster read “section 2255(e) as encompassing challenges to both
convictions and sentences that as a structural matter
cannot be entertained by use of the 2255 motion.”
784 F.3d at 1139. It further recognized that, in
exceptional circumstances, constitutional claims can
be brought under § 2241. And it granted relief,
finding that a failure to do so would “condon[e] an
execution that violates the [constitution],” and that
“there is no reason to assume that our procedural
system is powerless to act in such a case.” Id. at
1139–40. So too here.
While it may be true that a case presenting the
exact facts of Webster would be “rare,” 784 F.3d at
1141, the Seventh Circuit has not required strict
adherence to a “rigid categor[y],” Purkey v. United
States, 964 F.3d 603, 614 (7th Cir. 2020). Mr. Hall’s
case fits into this narrow, rare category. The evi-

18
dence that he seeks to present is, like Mr. Webster’s,
exceptionally compelling and grounded in the vindication of his most fundamental constitutional rights.
Allowing Petitioner to challenge his execution, based
on a sentence handed down by an all-White jury
fabricated on the basis of racial prejudice, is within
the “core purpose of habeas corpus.” Webster, 784
F.3d at 1139. The evidence that he seeks to present
is of the type by which “the very integrity of the
courts is jeopardized.” Miller-El v. Dretke, 545 U.S.
231, 238 (2005); see also See also Br. of Amicus
Curiae NAACP Legal Def. & Educ. Fund, Inc. In
Support of Pet’r-Appellant at 4-5, Hall v. Watson, No.
2:20-cv-00599 (S.D. Ind. Nov. 18, 2020); see also id.
at 15 (urging the Court to hold that “the § 2241
safety valve is available when, as here, a petitioner
facing execution by the United States has presented
compelling evidence that his sentence of death is
tainted by racism”).
2. Precluding Mr. Hall From Litigating His
Claims Would Result In A Fundamental Miscarriage of Justice.
Allowing the panel’s decision to stand would “result
in a ‘fundamental miscarriage of justice.’” Coleman v.
Thompson, 501 U.S. 722, 749-50 (1991) (internal
quotation omitted). Racial bias in a criminal trial is
so antithetical to constitutional values that this
Court has gone to great lengths to repeatedly condemn it. See, e.g., Peña-Rodriguez v. Colorado, 137 S.
Ct. 855, 868 (2017) (“The unmistakable principle
underlying these precedents is that discrimination
on the basis of race, ‘odious in all aspects, is especial-

19
ly pernicious in the administration of justice.’”)
(quoting Rose v. Mitchell, 443 U.S. 545, 555 (1979)).
Indeed, “[s]ome toxins can be deadly in small doses.” Buck v. Davis, 137 S. Ct. 759, 777 (2017). And
here, the toxins were more than small. The allWhite jury that convicted Mr. Hall and sentenced
him to death was selected by a prosecutor with the
remarkable track record of having twice been adjudicated, by two different courts—including this one—to
have violated Batson, in decisions that repeatedly
identified him by name and expressly found that the
justifications he proffered for the strikes at issue
were false and pretextual. See Miller-El, 545 U.S. at
248-50; Reed, 555 F.3d at 371, 376, 382.
Because the execution of a death sentence imposed
on the basis of racial discrimination works a fundamental “miscarriage of justice,” see Wainwright v.
Sykes, 433 U.S. 72, 91 (1977), a habeas petitioner
may prevail if he puts forth evidence tending to show
that his case satisfies the “miscarriage-of-justice
exception.” See House v. Bell, 547 U.S. 518, 536
(2006) (quoting Schlup v. Delo, 513 U.S. 298, 324
(1995)). The racial animus that infected Mr. Hall’s
capital trial is a “fundamental miscarriage of justice”
that can be corrected on habeas review despite any
claimed procedural bar. Coleman, 501 U.S. at 750.
See also Br. of Amicus Curiae NAACP Legal Def. &
Educ. Fund, Inc. In Support of Pet’r-Appellant at 2,
Hall v. Watson, No. 2:20-cv-00599 (S.D. Ind. Nov. 18,
2020) (“It would be a fundamental miscarriage of
justice for the United States to carry out an execution without providing courts an opportunity to
consider and resolve the merits of Mr. Hall’s sub-

20
stantial claims that his death sentence is unlawfully
tainted by racial discrimination.”); see also id. at 1114 (discussing that it would be a fundamental miscarriage of justice for the United States to
carry out an execution based on a death sentence
influenced by [racial] discrimination”).
B. The Lower Courts Committed Manifest Error in Failing to Consider the
New Evidence of Batson Violations
Tainting Petitioner’s Death Sentence.
The circuit court and district court below erred in
denying consideration of the evidence of Batson
violations. Though the district court conceded that
the allegations were “extremely serious,” the court
denied Petitioner’s motion to consider such claims on
the grounds that they were delayed. Pet. App. 25a.
The evidence of Batson violations was validly before
the courts below pursuant to § 2241, as Petitioner
sought to raise his Batson claim on the basis of newly
discovered evidence of a grave constitutional violation, which justifies access to a petition under § 2241
through the savings clause in § 2255(e).
Racial discrimination permeates government decisions made in this case. The government chose to
prosecute Mr. Hall in the Northern District of Texas,
Fort Worth Division, a decision that seated the case
in a jurisdiction with only a 10.41% Black population
in 1990, rather than the 38.5% Black population in
the Pine Bluff Division of the Eastern District of
Arkansas at that time. Petition for Writ of Habeas
Corpus at 23, No. 2:20-cv-00599, Hall v. Watson,
(S.D. Ind. Nov. 12, 2020), ECF No. 1 (“Petition”). As
a result, of the 100 prospective jurors questioned

21
during voir dire, only seven were Black. Id. After
challenges for cause, when only six Black prospective
jurors remained, id. at 23 n.6, the government struck
four of the five qualified Black venire members in the
group from which the 12-member jury would be
selected. The fifth Black juror was struck by the
defense due to her strong pro-death penalty views,
and the sixth was selected as the third alternate. Id.
at 23. As a result, Mr. Hall, who is Black, was
convicted and sentenced to death by an all-White
jury.
One of the two prosecutors who conducted voir dire,
Paul Macaluso, began his career in the Dallas County District Attorney’s Office, which this Court found,
“for decades[,] . . . had followed a specific policy of
systemically excluding blacks from juries.” Miller-El
v. Dretke, 545 U.S. 231 (2005) (“Miller-El II”). In
proceedings brought under 28 U.S.C. § 2254, this
Court vacated Miller-El’s conviction and death
sentence, finding that Macaluso had struck Black
jurors on the basis of their race, in violation of Batson v. Kentucky,2 and then lied about why he had
struck them. Id. Several years later, the Fifth
Circuit Court of Appeals found in a separate capital
habeas case that Macaluso had done the same. Reed
v. Quarterman, 555 F.3d 364 (5th Cir. 2009). Both
decisions mentioned Macaluso by name numerous
times.
Mr. Hall’s lawyers raised a Batson objection to the
prosecution’s strikes, and the district court asked the
2 476 U.S. 79 (1986).

22
government to explain them. Considering the government’s proffered reasons, in light of the voir dire
transcript and jury questionnaires demonstrates that
Macaluso brought his bias with him when he came to
work at the United States Attorney’s Office prosecuting Mr. Hall. As in Miller-El II and Reed, the proffered race neutral reasons are not borne out by the
record, as they contain several misstatements, and,
importantly, a comparison of non-Black jurors the
government accepted and reasons the government
claimed was the basis for their strikes establishes
that the proffered reasons, though race neutral, were
in fact pretexts for race discrimination. These included AUSA Richard Roper’s claim that the government had attempted to remove all four Black
jurors they struck for cause when it only in fact
challenged two of them.
With respect to the two jurors not previously challenged, a side-by-side comparison of the government’s proffered bases for its strikes provides useful
context:
Amy Evans. Amy Evans wrote in her jury questionnaire that she was in favor of the death penalty
“depend[ing] on the nature of the crime,” that it was
appropriate for “brutal senseless murders,” and that
it served “as a means of deterrent from committing
the crime.” Juror Questionnaire of Amy Evans at
Q,46, Q.48, Q.52a, No. 2:20-cv-00599, Hall v. Watson,
(S.D. Ind. Nov. 12, 2020), ECF No. 1-14 (“Evans
Questionnaire”). She testified that the death penalty
was “appropriate” in instances “where a crime was
committed intentionally without . . . any regard[] for
life.” Vol. 10, Tr. of Trial at 92:8-11 (Voir Dire Exam-

23
ination of Amy Evans), No. 2:20-cv-00599, Hall v.
Watson, (S.D. Ind. Nov. 12, 2020), ECF No. 1-13
(“Examination”). The government nonetheless used
a peremptory strike on her, claiming Ms. Evans “was
very, very hesitant on her views on the death penalty.” Vol. 12, Tr. of Trial (Hearing on Peremptory
Strike List) at 11:4-6, No. 2:20-cv-00599, Hall v.
Watson, (S.D. Ind. Nov. 12, 2020), ECF No. 1-11
(“Batson Hr’g”). But the government seated other
non-Black jurors who gave similar testimony. For
example, White juror Mary Ann Herring, like Ms.
Evans, Ms. Herring provided both “yes” and “no”
answers in her questionnaire, Juror Questionnaire of
Mary Ann Herring at Q.52a, No. 2:20-cv-00599, Hall
v. Watson, (S.D. Ind. Nov. 12, 2020), ECF No. 1-23,
writing that the application of the death penalty
“would depend on the crime,” id.; and she testified
during voir dire that the death penalty should “depend on the circumstances” and “on the crime,” Vol.
7, Tr. of Trial at 118:24, 119:2–3 (Voir Dire Examination of Mary Ann Herring), No. 2:20-cv-00599, Hall v.
Watson, (S.D. Ind. Nov. 12, 2020), ECF No. 1-20.
There is no appreciable difference between the views
espoused by Ms. Evans and Ms. Herring, yet one was
struck while the other one sat on the jury.
The government also stated that Ms. Evans “had
very long pauses in her answers and was very hesitant in what she said,” Batson Hr’g at 11:8-9, which
the record does not support. And the prosecutor
claimed that he was “concerned” that Ms. Evans had
two brothers-in-law in prison, even though he asked
her no questions about this topic, id. at 11:1-3, and
seated multiple non-Black jurors with family mem-

24
bers either currently in or released from prison. See
Petition at 33.
Billie Lee. Potential juror Billie Lee stated in her
questionnaire that she favored the death penalty for
“extremely brutal” crimes and it should be available
for “child molesters who kill their victims.” Juror
Questionnaire of Bille Lee at Q.45, Q.48, No. 2:20-cv00599, Hall v. Watson, (S.D. Ind. Nov. 12, 2020),
ECF No. 1-29. She later testified that the death
penalty was warranted for “[a]nything that involves
children, murder of children, [and] cruelty to children.” Examination at 125:16-19. (Mr. Hall was
tried for the killing of a minor). When asked if she
could “give honest and fair consideration” of the
death penalty, she responded that she could, “depending on evidence, the cruelty of the act, all of that
would have to be considered.” Id. at 127:19-21.
The government claimed it struck Ms. Lee because
she had stated in her juror questionnaire that she
did not believe in the death penalty but could assess
it. Yet again, a side-by-side comparison of jurors the
government accepted for service belies this explanation; indeed, the prosecution seated multiple White
jurors who expressed misgivings about capital punishment.
The government also proffered as a reason to exclude Ms. Lee that she was “on a prior jury trial for
robbery and found the defendant not guilty . . . .”
Batson Hr’g at 13:18-29. Not only is this false, but
the government actually accepted a White juror who
served on a prior jury and acquitted a defendant on a
charge of murder. See Juror Questionnaire of Dana
Crittendon at Q.87, No. 2:20-cv-00599, Hall v. Wat-

25
son, (S.D. Ind. Nov. 12, 2020), ECF No. 1-32. Yet,
this fact went unexplored by the prosecution, whose
only question about her prior jury service was to
clarify that she was already familiar with the voir
dire and trial process. Vol. 1, Tr. of Trial at 91:9–14,
98:2–7 11 (Voir Dire Examination of Dana Crittendon), No. 2:20-cv-00599, Hall v. Watson, (S.D. Ind.
Nov. 12, 2020), ECF No. 1-33. Upon noticing the
mistake as to Ms. Lee’s jury service, the prosecutor
changed his story, claiming that Ms. Lee was struck
because she “had a brother-in-law who was a criminal defense attorney, which caused [ ] some concern.”
Batson Hr’g at 14:5-9. But the prosecution asked Ms.
Lee no questions about this topic, which belies a
claim that it actually caused the government any
concerns. See Miller-El II, 545 U.S. at 246 (“[F]ailure
to engage in any meaningful voir dire examination
on a subject the [government] alleges it is concerned
about is evidence suggesting that the explanation is
a sham and a pretext for discrimination.” (internal
quotation marks omitted)). And, once again, the
government seated a White juror whose brother-inlaw was a public defender. Petition at 37.
While it is true that Mr. Hall’s trial counsel raised
a Batson challenge at trial, and that the trial record
contains evidence supporting a Batson claim, this
traditionally has not been enough, as courts have
been reluctant to conclude that a prosecutor intentionally discriminated on the basis of race without
something more than a cold trial record. In Foster v.
Chatman, for example, this “something more” was a
set of prosecution notes that came to light many
years after Foster’s trial showing that the prosecu-

26
tion had flagged all of the Black jurors on their strike
sheets, written “No Black Church,” and made a
recommendation for who to pick if they “had to pick a
black juror,” 78 U.S. ___ , 136 S. Ct. 1737 (2016). In
this Court’s most recent Batson decision, Flowers v.
Mississippi, the “something more” was evidence that
across its history of six trials prosecuting Flowers,
prosecutor Doug Evans struck 41 of 42 prospective
Black jurors. 588 U.S. __, 139 S. Ct. 2228 (2019).
And in Miller-El, the “something more” was new
evidence that the prosecution office at issue had
adopted a formal policy to exclude racial minorities
from jury service and that the specific prosecutors
who tried Miller-El had been trained to strike Black
jurors via the infamous “Sparling Manual.” MillerEl v. Dretke, 545 U.S. 231, 264 (2005)
Here, the Court need not search for “something
more” because one of the very same prosecutors that
the Supreme Court (and later the Fifth Circuit, in a
different case) concluded had violated Batson on the
basis of the office policy and Sparling Manual in
Miller-El helped pick the jury that convicted and
sentenced Mr. Hall. And just as in Miller-El, this
evidence bears directly on the Court’s inquiry into
the genuineness of the prosecution’s stated reasons
for its strikes of 80% of the qualified Black venire
members at Mr. Hall’s trial. Batson, 476 U.S. at 9697 (“all relevant circumstances” must be considered
in determining whether a violation has occurred). As
the Supreme Court noted in Miller-El II, “[i]f anything more is needed for an undeniable explanation
of what was going on, history supplies it.” 545 U.S. at
266. That is doubly so given that the “history” here

27
is the very same piece of history on which this Court
relied in Miller-El to find that Paul Macaluso violated the Equal Protection Clause in that case. See also
Reed v. Quarterman, 555 F.3d 364, 371 n.3 (5th Cir.
2009) (“One of the same lawyers that conducted the
voir dire in Miller–El’s case, Paul Macaluso, also
questioned prospective jurors for Reed’s trial”); id.
(given “the historical evidence of racial bias among
the[] prosecutors,” including Macaluso, “we view this
exact same evidence as persuasive here.”). And it
dispatches any notion that the jury selection process
at Mr. Hall’s trial was race neutral, as the Constitution requires.
The courts below erred by failing to consider Mr.
Hall’s Batson claims.
III. MR. HALL WILL SUFFER IRREPARABLE
HARM ABSENT A STAY.
There is a clear “likelihood of irreparable harm if
the judgment is not stayed.” Philip Morris USA Inc.,
561 U.S. at 1302. That is true for at least two reasons: Absent a stay, (i) Mr. Hall will be executed
amid arbitrary denials of his constitutional rights;
and (2) this Court will effectively be deprived of its
jurisdiction to consider the petition for a writ of
certiorari.
First, the harm of being executed is inarguably
“certain and great, actual and not theoretical, and so
imminent that there is a clear and present need for
equitable relief to prevent [it].” League of Women
Voters of the U.S. v. Newby, 838 F.3d 1, 7-8 (D.C. Cir.
2016) (internal quotation marks omitted); see also
Wainwright v. Booker, 473 U.S. 935, 935 n.1. (1985)

28
(Powell, J., concurring) (In capital cases, irreparable
harm is “necessarily present.”). If this Court does
not stay Mr. Hall’s execution, Mr. Hall will be executed without the opportunity to fully litigate his
meritorious constitutional claims. That is an “irremediable” harm. Ford v. Wainwright, 477 U.S. 399,
411 (1986).
Second, failure to grant a stay risks “foreclos[ing] * * * certiorari review by this Court,” which
itself constitutes “irreparable harm.” Garrison v.
Hudson, 468 U.S. 1301, 1302 (1984) (Burger, C.J., in
chambers); accord, e.g., John Doe Agency, 488 U.S. at
1309. “Perhaps the most compelling justification for
a Circuit Justice to upset an interim decision by a
court of appeals [is] to protect this Court’s power to
entertain a petition for certiorari before or after the
final judgment of the Court of Appeals.” John Doe
Agency, 488 U.S. at 1309 (alteration in original)
(quoting New York v. Kleppe, 429 U.S. 1307, 1310
(1976) (Marshall, J., in chambers)). Allowing the
government to execute Mr. Hall while his petition is
pending risks “effectively depriv[ing] this Court of
jurisdiction to consider the petition for writ of certiorari.” Garrison, 468 U.S. at 1302. Because “ ‘the
normal course of appellate review might otherwise
cause the case to become moot,’ issuance of a stay is
warranted.” Id. at 1302 (quoting In re Bart, 82 S. Ct.
675, 676 (1962) (Warren, C.J., in chambers)); see also
Chafin v. Chafin, 568 U.S. 165, 178 (2013) (suggesting that the threat of mootness warrants “stays as a
matter of course”).

29
IV. THE BALANCE OF EQUITIES AND
RELATIVE HARMS WEIGH STRONGLY IN
FAVOR OF GRANTING A STAY.
In addition to the stay factors identified above, “ ‘in
a close case it may be appropriate to balance the
equities,’ to assess the relative harms to the parties,
‘as well as the interests of the public at large.’ ”
Indiana State Police Pension Trust, 556 U.S. at 960
(quoting Conkright, 556 U.S. at 1402). Because the
other factors plainly point in favor of granting the
requested stay, this Court need not consider the
balance of equities here. But, if it does, this additional factor reinforces that result.
First, “[r]efusing a stay may visit an irreversible
harm on [Mr. Hall], but granting it will * * * do no
permanent injury to respondents.” Philip Morris
USA Inc., 561 U.S. at 1305. While the government
has an interest in the finality of Mr. Hall’s case, the
delay that will come from staying his execution to
allow him to litigate his “extremely serious” claims,
Pet. App. 25a, will not cause substantial harm to
Defendants. That is particularly true given that Mr.
Hall was protected by a stay of execution for 13
years, Order, Roane v. Gonzales, No. 1:05-cv-02337TSC (D.D.C. June 11, 2007), ECF No. 68; a reprieve
to which the government had consented and which
was not lifted until September 20, 2020—ten days
before the government decided to suddenly notice
Mr. Hall’s execution in the midst of a global pandemic, In the Matter of the Fed. Bureau of Prisons’ Execution Protocol Cases, No. 1:19-mc-00145-TSC (D.D.C.
Sept. 20, 2020), ECF Nos. 265 & 266. In light of this
history, “[a] brief stay to permit the orderly conclu-

30
sion of the proceedings in this court will not substantially harm the government . . . .” Purkey, 964 F.3d at
618.
Second, the public has an interest in ensuring that
Mr. Hall’s constitutional rights are fully litigated.
“[I]t is always in the public interest to prevent
violation of a party’s constitutional rights.” In re
Ohio Execution Protocol, 860 F.3d 881, 901 (6th Cir.
2017) (Moore, J., dissenting); see also Gannett Co. v.
DePasquale,
443
U.S.
368,
383
(1979)
(acknowledging public interest in protection of
constitutional rights); Cooey v. Taft, 430 F. Supp. 2d
702, 708 (S.D. Ohio 2006) (“The public interest has
never been and could never be served by rushing to
judgment at the expense of a condemned inmate’s
constitutional rights.”); Harris v. Johnson, 323 F.
Supp. 2d 797, 810 (S.D. Tex. 2004) (“Confidence in
the humane application of the governing laws . . .
must be in the public's interest.”). Indeed,“[a]pplying
the law in a way that violates the Constitution is
never in the public’s interest.” Minney v. U.S. Office
of Pers. Mgmt., 130 F. Supp. 3d 225, 236 (D.D.C.
2015).
On balance, a stay is therefore warranted. Failure
to grant one “may have the practical consequence of
rendering the proceeding moot” or otherwise cause
irreparable harm to Mr. Hall. Mikutaitis v. United
States, 478 U.S. 1306, 1309 (1986) (Stevens, J., in
chambers). The government would not “be significantly prejudiced by an additional short delay,” and
a stay would serve both the public interest and
judicial economy. Id. “In light of these considerations,” this Court should “grant the application.” Id.

31
CONCLUSION
For the foregoing reasons, Mr. Hall respectfully
requests the Court should stay his execution pending
disposition of his petition for certiorari.
Respectfully submitted,
KATHRYN M. ALI
KAITLYN A. GOLDEN
HOGAN LOVELLS US LLP
555 Thirteenth Street,
N.W.
Washington, D.C. 20004

PIETER VAN TOL
Counsel of Record
HOGAN LOVELLS US LLP
390 Madison Avenue
New York, NY 10017
(212) 918-3000
Pieter.vantol@hoganlovells.com

MARCIA A. WIDDER
104 MARIETTA STREET
NW, SUITE 260
ATLANTA, GA 30303
(404) 222-9202

NOVEMBER 19, 2020

ROBERT C. OWEN
LAW OFFICE OF ROBERT C.
OWEN, LLC
53 WEST JACKSON BLVD.,
SUITE 1056
CHICAGO, IL 60604

